                                                           EMPLOYMENT AND TRAINING
                                                           ADMINISTRATION

                                                           OFFICE OF
                                                           ADMINSTRATION AND
                                                           MANAGEMENT


             Office of Inspector General—Office of Audit




                                                           RECOVERY ACT: JOB CORPS COULD NOT
                                                           DEMONSTRATE THAT THE ACQUISITION OF THE
                                                           NEW FACILITY AT THE LOS ANGELES JOB
                                                           CORPS CENTER USING A MULTI-YEAR LEASE
                                                           WAS THE LEAST EXPENSIVE OPTION




                                                                              Date Issued:   September 30, 2010
02-A12-345-67-890                                                          Report Number:      18-10-009-03-370
U.S. Department of Labor
Office of Inspector General                             September 2010
Office of Audit
                                                        RECOVERY ACT: JOB CORPS COULD NOT
                                                        DEMONSTRATE THAT THE ACQUISITION OF
BRIEFLY…                                                THE NEW FACILITY AT THE LOS ANGELES
                                                        JOB CORPS CENTER USING A MULTI-YEAR
Highlights of Report Number 18-10-009-03-370, to        LEASE WAS THE LEAST EXPENSIVE OPTION
the Assistant Secretary for Employment and
Training and the Assistant Secretary for                WHAT OIG FOUND
Administration and Management.                          The OIG found that Job Corps could not
                                                        demonstrate that the multi-year lease with the
WHY READ THE REPORT                                     YWCA was the least expensive option to the
The Recovery Act, signed into law                       Government for purposes of acquiring a new
February 17, 2009, provided DOL with                    facility at the LAJCC. Through our analysis, we
$70.8 billion, including $250 million for Job Corps.    estimate that Government construction of the
The $250 million was for construction, operations,      facility may have cost $31 million less than the
and administrative costs. The largest single            $82 million multi-year lease. In addition, Job Corps
expenditure of these funds by Job Corps was a           could not demonstrate that the bargain purchase
20-year lease totaling $82 million with the YWCA        price was the least expensive way to acquire the
of Greater Los Angeles (YWCA) for it to construct       new facility at the end of the 20-year lease term.
a new seven-story facility at the Los Angeles Job       OASAM solicited proposals for the new facility and
Corps Center (LAJCC). The LAJCC will occupy the         only the YWCA responded. OASAM negotiated the
basement through the sixth floor of the new facility,   cost of the multi-year lease from a proposed
and the YWCA will have the seventh floor for its        $105 million to $82 million. However, Job Corps
offices. The lease agreement requires Job Corps         did not perform a lease-purchase analysis as
to make an advance payment of $20 million, and          required by OMB Circular A-94 to demonstrate that
incremental lease payments ranging from                 the multi-year lease was less expensive than
$2.8 million to $3.3 million per annum through          Government ownership or justified as preferable to
2031. Job Corps also agreed to pay a bargain            direct Government purchase and ownership. In
purchase price of 60 percent of fair market value       fact, there is no evidence that any other options
(FMV) at the end of the lease term if it opts to        were considered prior to awarding the multi-year
purchase the facility.                                  lease.
As of May 25, 2010, Job Corps had a total of 48         WHAT OIG RECOMMENDED
operating leases. The multi-year lease is the only      We recommended the Assistant Secretary for
capital lease that Job Corps currently has for a Job    Employment and Training work with the Assistant
Corps center.                                           Secretary for Administration and Management to
                                                        demonstrate, in accordance with OMB Circular
WHY OIG CONDUCTED THE AUDIT                             A-94, that the multi-year lease with the YWCA to
Our audit objective was to answer the following         acquire a new facility at the LAJCC was the least
question:                                               expensive option to the Government, and if
                                                        appropriate, renegotiate the multi-year lease
 What is the impact of Job Corps using a                agreement. We also recommended Job Corps and
 multi-year lease to acquire a facility at the Job      the Department update their policies and
 Corps Center in Los Angeles?                           procedures for facility leasing.
READ THE FULL REPORT                                    Management partially agreed with our
To view the report, including the scope,                recommendations. ETA and OASAM do not
methodology, and full agency response, go to:           believe that OMB Circular A-94 applied in the
http://www.oig.dol.gov/public/reports/oa/2010/1         LAJCC procurement because its provisions are
8-10-009-03-370.pdf.                                    suggested, not required. However, ETA and
                                                        OASAM agreed that the policies and procedures
                                                        for real property leasing will be reviewed and
                                                        revised accordingly.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                   2010 Recovery Act - Job Corps Multi Year Lease
                                    Report No. 18-10-009-03-370
                                                              U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1



Results in Brief .............................................................................................................. 2



Objective — What is the impact of Job Corps using a multi-year lease to aquire 

            a facility at the Job Corps Center in Los Angeles? .............................. 4


          Job Corps may not have acquired the new Job Corps facility in the least 

          expensive manner. ............................................................................................... 4



          Finding 1 — Job Corps could not demonstrate that the multi-year lease 

                     was the least expensive option. ........................................................ 4


          Finding 2 — OASAM could not support the basis for the BPO price. ................... 6



Recommendations ........................................................................................................ 7



Exhibit
          Exhibit Estimate Cost of Government Construction vs. Multi-Year Lease ......... 11



Appendices
          Appendix A Background ..................................................................................... 15


          Appendix B Objective, Scope, Methodology, and Criteria .................................. 17


          Appendix C Acronyms and Abbreviations .......................................................... 21


          Appendix D ETA and OASAM Response to Draft Report................................... 23


          Appendix E Acknowledgements ......................................................................... 27






                                                                     2010 Recovery Act - Job Corps Multi Year Lease
                                                                                      Report No. 18-10-009-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                   2010 Recovery Act - Job Corps Multi Year Lease
                                    Report No. 18-10-009-03-370
                                           U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210


September 30, 2010


                        Assistant Inspector General’s Report

Jane Oates
Assistant Secretary
 for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

T. Michael Kerr
Assistant Secretary
 for Administration and Management
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The American Recovery and Reinvestment Act (Recovery Act), signed into law
February 17, 2009, provided the Office of Job Corps (Job Corps) in the U.S.
Department of Labor (DOL) with $250 million for construction, operations, and
administrative costs. The largest single expenditure of these funds was a 20-year lease
totaling $82 million with the YWCA of Greater Los Angeles, Inc. (YWCA) for the YWCA
to construct a seven-story facility at the Los Angeles Job Corps Center (LAJCC). The
LAJCC will occupy the basement through the sixth floor of the new facility, and the
YWCA will have the seventh floor for its offices. The lease agreement requires Job
Corps to make an advance payment of $20 million, and incremental lease payments
ranging from $2.8 million to $3.3 million per annum through 2031. Job Corps also
agreed to pay 60 percent of fair market value (FMV) at the end of the lease term if it
opts to purchase the facility. At the time this lease was signed, the Office of the
Assistant Secretary for Administration and Management (OASAM) had overall
responsibility for Job Corps procurement. However, the Employment and Training
Administration (ETA) will be responsible for Job Corps Procurement starting
October 21, 2010.

Our audit objective was to answer the following question:

      What is the impact of Job Corps using a multi-year lease to acquire a facility at
      the Job Corps Center in Los Angeles?

The audit covered the multi-year lease — dated May 21, 2009 — between Job Corps
and the YWCA to acquire a new facility at LAJCC, and activities related to the lease
through August 11, 2010.

                                                  2010 Recovery Act - Job Corps Multi Year Lease
                                             1                     Report No. 18-10-009-03-370
                                          U.S. Department of Labor – Office of Inspector General




To assess the impact of Job Corps using a multi-year lease to acquire a facility at
LAJCC, we reviewed the multi-year lease agreement’s procurement file for compliance
with Office of Management and Budget (OMB) Circular A-94 and internal policies and
procedures. We interviewed officials from DOL, other Federal agencies, and the YWCA
to gain an understanding of the Government leasing process and the process DOL used
to solicit and award the multi-year lease. We conducted audit work at OASAM and Job
Corps headquarters in Washington D.C., and at the YWCA in Los Angeles, Calif.

We conducted this performance audit in accordance with generally accepted
government auditing standards (GAGAS). Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.


RESULTS IN BRIEF

Job Corps could not demonstrate that the multi-year lease with the YWCA was the least
expensive option to the Government for purposes of acquiring a new facility at the
LAJCC. Through our analysis, we estimate that Government construction of the facility
may have cost $31 million less than the $82 million multi-year lease. In addition, Job
Corps could not demonstrate that the bargain purchase option (BPO) price of 60
percent of FMV is the least expensive way to acquire the new facility at the LAJCC at
the end of the 20-year lease term.

OASAM solicited proposals for the new facility by publicizing a Request for Proposal
(RFP) on March 3, 2009. To meet the Recovery Act’s requirements for using a
multi-year lease — specifically, that construction begin within 120 days of the
Recovery Act’s enactment — the RFP award factors included the ability to commence
construction on or before June 16, 2009, and gave offerors 30 days to respond. The
RFP closed on April 2, 2009, and only the YWCA submitted an offer.

The proposal from the YWCA was for $105 million and included a $20 million advance
rental payment. OASAM negotiated the cost of the multi-year lease from a proposed
$105 million to $82 million and determined that the resultant cost was reasonable based
on a market rent study. However, Job Corps did not perform a lease-purchase analysis
as required by OMB Circular A-94 to determine the least expensive way to acquire a
new facility.

In addition to the $82 million in leasing costs Job Corps will be paying the YWCA, Job
Corps also agreed to pay 60 percent of FMV at the end of the lease term if it opts to
purchase the facility. According to OASAM, the purchase price resulted from



                                                2010 Recovery Act - Job Corps Multi Year Lease
                                           2                     Report No. 18-10-009-03-370
                                           U.S. Department of Labor – Office of Inspector General



negotiations with the YWCA. However, OASAM could not provide documentation to
support the basis for the BPO price.

The current departmental policies and procedures related to Job Corps real property
leasing were last updated in 1991, which pre-dates OMB Circular A-94 requirements to
perform a lease-purchase analysis. As a result of not performing a lease-purchase
analysis, Job Corps may have lost the opportunity to put at least $31 million of
Recovery Act funds to better use. In addition, without an adequate basis for the facility’s
BPO price, Job Corps cannot ensure that it will pay the least expensive price to acquire
the facility at the end of the 20-year lease period.

We recommended the Assistant Secretary for Employment and Training work with the
Assistant Secretary for Administration and Management to demonstrate, in accordance
with OMB Circular A-94, that the multi-year lease with the YWCA to acquire a new
facility at the LAJCC was the least expensive option to the Government and if
appropriate, renegotiate the multi-year lease agreement to ensure that the total cost of
the lease, including the BPO price, is the least expensive option to the Government. We
also recommended Job Corps and the Department update their policies and procedures
for facility leasing to incorporate the requirements of OMB Circular A-94.

ETA and OASAM Response

In their response, ETA and OASAM stated that the guidelines in OMB Circular A-94
only apply to analyses submitted to OMB as a part of the budget process outlined in
OMB Circular A-11. Otherwise, OMB Circular A-94 guidelines are only suggestions for
internal planning. Since OMB advised ETA that the completion of an OMB Circular A-11
Exhibit 300 was not necessary for the LAJCC capital lease, ETA did not complete a
lease-purchase analysis as described in OMB Circular A-94. If OMB had required an
Exhibit 300 for the LAJCC capital lease, ETA and OASAM would have followed A-94
guidelines and performed the required lease-purchase analysis. In addition, ETA and
OASAM stated that because the final cost of the multi-year lease was negotiated from
$105 million originally proposed by the YWCA to $82 million, they netted a cost savings
of $23 million that was available for redeployment to other projects. ETA and OASAM’s
written response to the draft report is provided in its entirety in Appendix D.

OIG Conclusion

The purpose of OMB Circular A-94 is to promote efficient resource allocation through
well-informed decision making by the Federal Government. OMB Circular A-94 applies
to any analysis used to support Government decisions to initiate, renew or expand
programs or projects, which would result in a series of measurable benefits or costs
extending for 3 or more years into the future. An analysis of the decision to lease
rather than purchase as described by OMB Circular A-94 was necessary to
demonstrate the efficient use of Recovery Act resources through well-informed
decision making. Had such an analysis been performed, the results may have shown
that Government construction of the facility would have cost significantly less than the
$82 million multi-year lease. Furthermore, although OMB did inform ETA that an

                                                 2010 Recovery Act - Job Corps Multi Year Lease
                                             3                    Report No. 18-10-009-03-370
                                           U.S. Department of Labor – Office of Inspector General



Exhibit 300 was not required for the LAJCC multi-year lease, this occurred in an email
dated September 24, 2009, 4 months after the lease with LAJCC was signed.


RESULTS AND FINDINGS

Objective — What is the impact of Job Corps using a multi-year lease to aquire a
            facility at the Job Corps Center in Los Angeles?

       Job Corps may not have acquired the new Job Corps facility in the least
       expensive manner.

By using a multi-year lease with the YWCA, Job Corps may not have acquired the new
facility at the LAJCC in a way that was least expensive to the Government. Our analysis
shows Government construction of the facility may have cost $31 million less than the
$82 million multi-year lease. In addition, Job Corps could not demonstrate that the BPO
price of 60 percent of FMV is the least expensive way to acquire the facility at the end of
the 20-year lease term.

Finding 1 — Job Corps could not demonstrate that the multi-year lease was the
            least expensive option.

Job Corps could not demonstrate that the multi-year lease with the YWCA for a new
facility at LAJCC was the least expensive option to the Government. On May 21, 2009,
Job Corps signed a multi-year lease with the YWCA for a new facility to be built by the
YWCA. The total value of the lease is $82 million, with $20 million paid to the YWCA in
advance and $62 million paid over 20 years. Job Corps did not perform a
lease-purchase analysis to compare the cost of the lease to Government ownership.

OMB Circular A-94, Guidelines and Discount Rates for Benefit-Cost Analysis of Federal
Programs, states:

       All leases of capital assets must be justified as preferable to direct
       government purchase and ownership … Whenever a Federal agency
       needs to acquire the use of a capital asset, it should do so in the way that
       is least expensive for the Government as a whole … that leases are
       justified through a lease-purchase analysis.

The Recovery Act included provisions that specifically allowed Job Corps to use the
multi-year lease option and advance payments to lease real property as long as
construction began within 120 days of the enactment of the Recovery Act (February
17, 2009). OASAM solicited proposals for the new facility by publicizing an RFP on
March 3, 2009. To meet the Recovery Act’s requirements for using a multi-year lease,
one of the RFP award factors included the ability to commence construction on or
before June 16, 2009 and gave offerors 30 days to respond. The RFP closed on
April 2, 2009 and only the YWCA responded to the RFP.

                                                 2010 Recovery Act - Job Corps Multi Year Lease
                                             4                    Report No. 18-10-009-03-370
                                          U.S. Department of Labor – Office of Inspector General




The proposal from the YWCA was for $105 million and included a $20 million advance
rental payment. OASAM negotiated the cost of the multi-year lease down from a
proposed $105 million to $82 million and determined that the cost was acceptable
based on a market rent study performed by Lea Associates in March 2009. The lease
agreement with the YWCA was signed on May 21, 2009, and construction began by
June 16, 2009.

However, Job Corps did not perform a lease-purchase analysis as required by OMB
Circular A-94 to demonstrate that the multi-year lease is less expensive than
Government ownership or justified as preferable to direct Government purchase and
ownership. In fact, there is no evidence that any other options were considered prior to
awarding the multi-year lease.

Through consultation with the General Services Administration (GSA) officials, we
identified the information that GSA uses in its Automated Prospectus System (TAPS)
to perform lease-purchase analyses based on OMB Circular A-94. Using information
from TAPS, we performed a lease-purchase analysis — using available data and 2009
dollars — in accordance with OMB Circular A-94, and estimated that Job Corps may
have spent approximately $31 million more by acquiring the facility through the
multi-year lease than by Government construction. Taking a present value of the 20-
year lease payments, and the $20 million advance rent payment, we calculated the
total cost to Job Corps under the multi-year lease to be $66.6 million. Conversely, we
estimated the total cost of Government construction and operation to be $35.6 million.
(See Exhibit.)

According to Job Corps, the multi-year lease was chosen without performance of a
lease-purchase analysis because the multi-year lease proposal from the YWCA was
the only option. The Department made “a deliberate and concerted effort” to
implement the multi-year provision of the Recovery Act, which requires construction to
begin in 120 days, to comply with the intentions of Congress and the purposes of the
legislation to provide economic stimulus and create jobs. Job Corps further explained
that “… the requirement to perform the tasks necessary for a formal lease-purchase
analysis would have precluded the Department from meeting the 120-day requirement
provided by the Recovery Act.” However, the Department failed to note that, while the
Recovery Act does promote quick commencement of expenditures, it does not waive
existing legislative or administrative requirements or prudent management decisions.

Section 3 of the Recovery Act, (b) General Principle Concerning Use of funds, states:

      The President and the heads of Federal departments and agencies shall
      manage and expend the funds made available in this Act so as to achieve
      the purposes specified in subsection (a), including commencing
      expenditures and activities as quickly as possible consistent with prudent
      management.



                                                2010 Recovery Act - Job Corps Multi Year Lease
                                            5                    Report No. 18-10-009-03-370
                                          U.S. Department of Labor – Office of Inspector General



The Department and Job Corps’ lack of up-to-date polices and procedures on Job
Corps real property leasing was also a contributing factor in a lease-purchase analysis
not being performed. Neither the Federal Acquisition Regulation nor GSA acquisition
regulations apply to Job Corps facility leases. The current internal policies and
procedures on Job Corps facility leasing were issued by ETA and were last revised in
1991, which pre-dates OMB Circular A-94, issued in 1992. The guidance was limited to
stating, “If appropriate, a lease vs. purchase analysis may be performed.”

As a result of not performing a lease-purchase analysis, Job Corps did not have the
necessary information to make the most informed decision to acquire the new facility,
and may have lost the opportunity to put $31 million in Recovery Act funds to better use
for other construction, rehabilitation and acquisition of Job Corps facilities.

Finding 2 — OASAM could not support the basis for the BPO price.

In addition to the $82 million Job Corps will be paying the YWCA, Job Corps also
agreed to pay 60 percent of the facility’s FMV at the end of the lease term if it opts to
purchase the facility. However, OASAM did not have documentation to support how it
determined the basis for the agreed-upon BPO price. According to OASAM officials, the
BPO price resulted from negotiations with the YWCA but the negotiation to determine
BPO is not required to be documented. As a result, Job Corps cannot ensure that it will
pay the least expensive price to acquire the facility at the end of the lease term.

The ETA Real Property Acquisition Procedure, which covers Job Corps’ acquisition of
real property by lease or purchase, requires a complete, detailed record of negotiation
that supports the reasonableness of price negotiated. In addition, it requires that any
special or non-standard contract provisions be addressed. As this lease agreement
with the YWCA is the only Job Corps capital lease, the BPO price should be
considered non-standard.

ETA’s Real Property Acquisition Procedure states:

      A complete, detailed price negotiation memorandum will be prepared prior
      to award and should include:

      a		 A summary of the offers received from each offeror (prices, terms,
          etc.), the Government's objectives and the negotiation results. Included
          in this summary shall be any revised or adjusted offers.
      b Names and titles of Government and property owner representatives
          who participated in the negotiations.
      c Any exceptions to the Government's terms and conditions should be
          addressed as well as any special or non-standard contract provisions.
      d		 The memorandum should clearly show and support that the price
          negotiated is reasonable. In the event the price exceeds the
          Government's negotiation objective, appropriate rationale should be



                                                2010 Recovery Act - Job Corps Multi Year Lease
                                            6                    Report No. 18-10-009-03-370
                                           U.S. Department of Labor – Office of Inspector General



         included (i.e., additional supporting data presented during negotiations,
         market conditions, etc.).
       e Conversations with interested parties and offerors should be
         documented in a Memorandum to the File.

Because of the special-purpose nature of the Job Corps facility, we did not seek to
identify comparably aged property in Los Angeles. Consequently, we cannot estimate
the FMV of the facility. However, OMB Circular A-11 states that in lieu of current market
appraisals to determine FMV, construction cost can be used as a reasonable
alternative. The March 5, 2009, market rent study issued by Lea Associates identified
the replacement cost of the facility at LAJCC as being $56.5 million. The replacement
cost comprises $49.1 million to construct a new facility and $7.4 million for the
estimated value of the land. It is not unreasonable to assume that the facility’s FMV in
20 years will be significantly higher than the current replacement value. We used the
market rent study’s $56.5 million replacement cost as the FMV and calculated an
estimated minimum BPO price to be $34 million (60 percent of $56.5 million).

According to an OASAM official, the BPO price of 60 percent of FMV resulted from
negotiations with the YWCA. However, the Memorandum of Record for those
negotiations did not detail how the BPO price was determined. In fact, the
Memorandum of Record did not even mention the BPO. In addition, OASAM officials
stated that a detailed record of negotiations is not required for leases.

Without an adequate basis for the BPO price, Job Corps cannot ensure that it would
pay the least expensive price to acquire the facility. Based on our analysis, should Job
Corps choose to acquire the new facility at the end of the lease period, it will have paid
a minimum of $116 million ($82 Million in lease payments and $34 Million to exercise
the BPO) to do so.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training work with the
Assistant Secretary for Administration and Management to:

   1. Demonstrate, in accordance with OMB Circular A-94, that the multi-year lease
      with the YWCA to acquire a new facility at the LAJCC was the least expensive
      option to the Government and if appropriate, renegotiate the multi-year lease
      agreement to ensure that the total cost of the lease including the bargain
      purchase option is the least expensive option to the Government.

   2. Update Departmental and Job Corps policies and procedures for facility leasing
      to incorporate the requirements of OMB Circular A-94.




                                                 2010 Recovery Act - Job Corps Multi Year Lease
                                             7                    Report No. 18-10-009-03-370
                                         U.S. Department of Labor – Office of Inspector General



We appreciate the cooperation and courtesies that Job Corps and OASAM personnel
extended to the Office of Inspector General during this audit. OIG personnel who made
major contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                               2010 Recovery Act - Job Corps Multi Year Lease
                                          8                     Report No. 18-10-009-03-370
            U.S. Department of Labor – Office of Inspector General




Exhibit 





                  2010 Recovery Act - Job Corps Multi Year Lease
             9                     Report No. 18-10-009-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                   2010 Recovery Act - Job Corps Multi Year Lease
              10                    Report No. 18-10-009-03-370
                                                         U.S. Department of Labor – Office of Inspector General



                                                                                                            Exhibit
Estimate Cost of Government Construction vs. Multi-Year Lease

       Estimate Cost of Government Construction vs. Multi-Year Lease
                                                          Government
                                                          Construction                    Multi-Year Lease

       Present Value of Lease
       Payments                                                                              $ 46.6 million 1
       Advanced Lease Payment                                                                  20.0 million 2

       Total Construction cost                          $ 37.6 million 3


       Land 7.4                                                million 4


       Design Costs                                        3.8 million 5


       Management and fees                                 4.5 million 6


       Maintenance and Insurance 

       cost                                                  7.2 million   7





       Less: Book Value                                   (24.9) million 8

       Total                                             $ 35.6 million                       $ 66.6 million

1
  Following instructions found in OMB Circular A-94, the total lease payment of $62 million was discounted at
4.7% over the 20 years of the lease to arrive at a present value of lease payments of $46.6 million. The discount
factor of 4.7% for 20 year maturity in 2009 was obtained from OMB Circular A-94, Appendix C.
2
    Advance rent paid to YWCA in 2009.
3
  Total Construction cost is the direct material, payroll, insurance, and regulation costs based on estimate prepared
by PLC construction in September of 2009. This reflects our estimate of the cost to construct basement and the first
six floors. The seventh floor of the facility will not be occupied by Job Corps.
4
    The estimated value of land is reflected in the market rent study conducted by Lea Associates in March, 2009.
5
  10% of total construction cost was used for design costs. The 10% design cost figure is used in GSA’s Automated
Prospectus System (TAPS). TAPS performs lease versus purchase analyses based on OMB A-94 guidance.
6
 12% of total construction cost was used for management and inspection fees. 12% is used in GSA’s Automated
Prospectus System (TAPS). TAPS performs lease versus purchase analyses based on OMB Circular A-94 guidance.
7
  Expenses related to owning the facility over the 20 years. The market rent study conducted by Lea Associates in
March, 2009 estimated these costs at approx. $473,000 a year. This includes costs such as repair, maintenance, and
insurance. The $473,000 was discounted at 4.7% (See Footnote – 1) over the 20 years of the lease to arrive at a
present value of $7.2 million of future operating expenses over the life of the lease.
8
  The estimated book value comprises the land valued at $7.4 million and the book value of the building at the end
of 20 years, which is calculated using straight line depreciation over 30 years. The book value of the building at the
end of 20 years is approx. $17.5 million. This does not represent the estimated future assessed market value. Any
increase in the value may increase the difference between the cost of leasing and the cost of construction.

                                                                2010 Recovery Act - Job Corps Multi Year Lease
                                                           11                    Report No. 18-10-009-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                   2010 Recovery Act - Job Corps Multi Year Lease
              12                    Report No. 18-10-009-03-370
               U.S. Department of Labor – Office of Inspector General




Appendices 





                     2010 Recovery Act - Job Corps Multi Year Lease
                13                    Report No. 18-10-009-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                   2010 Recovery Act - Job Corps Multi Year Lease
              14                    Report No. 18-10-009-03-370
                                                           U.S. Department of Labor – Office of Inspector General



                                                                                                             Appendix A
Background

The Recovery Act, signed into law February 17, 2009, provided DOL with $70.8 billion,
including $250 million for Job Corps, as shown below.

  Table 1: Department of Labor Recovery Act Funding, as of August 19, 2010
                                                         Amount a
  Program                                               (millions)   Percent
  Unemployment Insurance                                  $65,996       93.17
  Training and Employment Services                           3,950       5.58
  State Unemployment Insurance and Employment
  Service Operations                                           400       0.56
  Community Service Employment for Older Americans             120       0.17
  National Emergency Grants for Health Insurance
  Coverage 40                                                            0.06
  Job Corps                                                    250       0.35
  Departmental Management                                       80       0.11
                                                                 b
  Total $70,836                                                        100.00
  a
   – The amounts other than “Unemployment Insurance and National Emergency Grants for Health Insurance Coverage’ were
  obtained from the Recovery Act dated February 17, 2009. The “Unemployment Insurance amount was provided by the
  Office of the Assistant Secretary for Administration and Management, and includes amounts made available for Federal and
  State Extended Benefits, Extension of Emergency Unemployment Compensation, and Federal Additional Unemployment
  Compensation programs. The National Emergency Grants for Health Insurance Coverage amounts were adjusted in United
  States Public Law 111-226 (HR1586).
  b
   – The total amount does not include $6 million provided to the OIG to provide oversight over the Department’s Recovery
  Act activities.


The $250 million was for construction, operations and administrative costs. The largest
single expenditure of these funds by Job Corps was a 20-year lease totaling $82 million
with the YWCA for it to construct a seven-story facility at LAJCC. Public Law 105-220,
Section 189b, otherwise known as the Workforce Investment Act of 1978, authorizes
the Secretary of Labor to engage in leasing of real property for Job Corps centers. The
LAJCC will occupy the basement through the sixth floor of the new facility, and the
YWCA will have the seventh floor for its offices. Job Corps will occupy approximately
110,031 square feet of space in the new facility. The lease agreement requires Job
Corps to make an advance payment of $20 million, and incremental lease payments
ranging from $2.8 million to $3.3 million per annum through 2031. The advance
payment was paid to the YWCA over three installments during October, November, and
December of 2009. According to the lease agreement, Job Corps is scheduled to
recover the advance through a rent abatement of $1 million a year over the 20 year
lease term. The Recovery Act included provisions that specifically allowed Job Corps to
provide advance payments for multi-year leases as long as construction began within
120 days of the enactment of the Recovery Act.

Job Corps and OASAM publicized an RFP on March 3, 2009, with a closing date of
April 2, 2009. Only the YWCA responded to the RFP. The YWCA had been proposing a

                                                                   2010 Recovery Act - Job Corps Multi Year Lease
                                                             15                     Report No. 18-10-009-03-370
                                          U.S. Department of Labor – Office of Inspector General



multi-year lease arrangement for a new facility at LAJCC since as early as 2003. The
lease agreement was signed on May 21, 2009, and construction began by
June 16, 2009. The YWCA has estimated that it is scheduled to be completed by
September 1, 2011. The lease requires the new facility to be available no later then
November 1, 2012. The new facility replaces an existing facility currently being leased
by Job Corps in which the lease expires in November 2012. At the time this lease was
signed, OASAM had overall responsibility for Job Corps procurement. ETA was
responsible for Job Corps procurement until 2006, when responsibility was transferred
to OASAM. ETA will again be responsible for Job Corps Procurement again starting
October 21, 2010.

As of May 25, 2010, Job Corps had a total of 48 operating leases. The multi-year lease
is the only capital lease that Job Corps currently has for a Job Corps center. In
accordance with Statement of Federal Financial Accounting Standards, since the multi-
year lease contains a BPO, it is classified as a capital lease.




                                                2010 Recovery Act - Job Corps Multi Year Lease
                                           16                    Report No. 18-10-009-03-370
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Our audit objective was to answer the following question:

What is the impact of Job Corps using a multi-year lease to acquire a facility at the Job
Corps Center in Los Angeles?

Scope

The audit covered the multi-year lease — dated May 21, 2009 — between Job Corps
and the YWCA to acquire a new facility at LAJCC, and activities related to the lease
through August 11, 2010

We conducted this performance audit in accordance with GAGAS. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believed that the evidence obtained provides a reasonable basis for our
findings and conclusion based on our audit objective.

Methodology

To assess the impact of Job Corps using a multi-year lease to acquire a facility at the
Job Corps Center in Los Angeles, we reviewed the multi-year lease agreement’s
procurement file and other documents for compliance with OMB Circular A-94 and
internal policies and procedures. We interviewed OASAM, Job Corps, and YWCA
officials to gain an understanding of the process to solicit and award the multi-year
lease. We interviewed officials from GSA to gain an understanding of the use of capital
leases in the Federal Government. GSA is the nation's largest public real estate
organization and provides workspace for more than 1.2 million Federal workers through
its Public Buildings Service. In addition, we gained an understanding of GSA’s TAPS.
TAPS is an automated system that GSA uses to perform lease-purchase analyses
based on OMB Circular A-94 guidance. TAPS calculates the present value of lease
payments over time and compares that to Government construction and ownership to
determine which is less expensive.

We interviewed officials from the United States Department of Agriculture (USDA), as it
is the only other Federal agency to operate Job Corps centers. We also interviewed
officials from the Government Accountability Office (GAO) to gain an understanding of
several reports that GAO has issued related to the Government leasing process. We
conducted audit work at OASAM and Job Corps headquarters in Washington D.C., and
at the YWCA in Los Angeles, Calif., between May 19, 2010, and August 11, 2010.




                                                 2010 Recovery Act - Job Corps Multi Year Lease
                                            17                    Report No. 18-10-009-03-370
                                           U.S. Department of Labor – Office of Inspector General



We performed a lease-purchase analysis in accordance with OMB Circular A-94 based
on available data. We also used GSA’s TAPS as additional guidance. The multi-year
lease payments were discounted to 2009 dollars using a nominal interest rate of 4.7
percent, the rate prescribed for a 20-year lease in 2009 by OMB Circular A-94,
Appendix C. We also used the mid-year discount factors since the lease payments are
made monthly throughout the year. The $20 million in advance rent payment was not
discounted since all of it was paid in 2009.

In estimating the cost to construct and operate the facility for 20 years, we used the
construction cost estimate prepared by the YWCA construction contractor, PCL
Construction Services, Inc. on September 1, 2009. For the cost of the construction, we
only calculated the space to be occupied by Job Corps (basement through 6th floor). For
the cost of the land, we used the land value estimate prepared by Lea Associates on
March 5, 2009, as a part of its market rent study. To calculate other costs associated
with construction, we used the percentages used by TAPS for estimating design,
management and inspection costs. To approximate the operating expenses for 20
years, we used numbers employed by Lea Associates in performing its market rent
study. Operating expenses included insurance, repairs and maintenance, management,
and administrative costs. Utility expenses were not included in our analysis because
Job Corps is responsible for utility expenses whether it leases or owns the facility. The
operating expenses, like the lease payments, were discounted to 2009 dollars using the
nominal interest rate of 4.7 percent. According to OMB Circular A-94, a residual value
should be subtracted from the purchase price in conducting a lease-purchase analysis.
Residual value is an estimate of price the facility could be sold for at the end of the
lease term. Residual value can be estimated by determining what the similar,
comparably aged property is currently selling for in commercial markets. Because of the
special-purpose nature of the Job Corps facility, we did not seek to identify the resale
value of a comparable aged property. Instead, we used the book value at the end of
20 years. The book value was calculated using straight-line depreciation over a 30-year
useful life. For land, we used its estimated value in 2009 since land is not depreciated.

In planning and performing our audit we considered internal controls that were relevant
to our audit objective by obtaining an understanding of those controls, and assessing
control risk for the purpose of achieving our objective. The objective of our audit was not
to provide assurance of the internal controls; therefore, we did not express an opinion
on internal controls as a whole. Our consideration of internal controls relevant to our
audit objective would not necessarily disclose all matters that might be significant
deficiencies. Because of the inherent limitations on internal controls, noncompliance
may nevertheless occur and not be detected.

Criteria

American Recovery and Reinvestment Act of 2009

OMB Circular A-94, Guidelines and Discount Rates for Benefit-Cost Analysis of Federal
Programs

                                                 2010 Recovery Act - Job Corps Multi Year Lease
                                            18                    Report No. 18-10-009-03-370
                                        U.S. Department of Labor – Office of Inspector General




OMB Circular A-11, Preparation and Submission of Budget Estimates

The ETA Real Property Acquisition Procedure, Revised October 1991

Workforce Investment Act of 1978

GSA’s The Automated Prospectus System

Statement of Federal Financial Accounting Standards




                                              2010 Recovery Act - Job Corps Multi Year Lease
                                         19                    Report No. 18-10-009-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                   2010 Recovery Act - Job Corps Multi Year Lease
              20                    Report No. 18-10-009-03-370
                                       U.S. Department of Labor – Office of Inspector General



                                                                              Appendix C
Acronyms and Abbreviations

BPO             Bargain Purchase Option

DOL             Department of Labor

ETA             Employment and Training Administration

FMV     Fair        Market Value

GAGAS           General Accepted Government Auditing Standards

GAO             Government Accountability Office

GSA             General Service Administration

LAJCC           Los Angeles Job Corps Center

OASAM           Office of the Assistant Secretary for Administration and
                Management

OIG             Office of Inspector General

Job Corps       Office of Job Corps

OMB             Office of Management and Budget

Recovery Act    American Recovery and Reinvestment Act of 2009

RFP             Request for Proposal

TAPS            Automated Prospectus System

USDA            United States Department of Agriculture

YWCA            YWCA of Greater Los Angeles, Inc.




                                             2010 Recovery Act - Job Corps Multi Year Lease
                                        21                    Report No. 18-10-009-03-370
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                   2010 Recovery Act - Job Corps Multi Year Lease
              22                    Report No. 18-10-009-03-370
                                  U.S. Department of Labor – Office of Inspector General



                                                                         Appendix D
ETA and OASAM Response to Draft Report




                                         2010 Recovery Act - Job Corps Multi Year Lease
                                   23                     Report No. 18-10-009-03-370
U.S. Department of Labor – Office of Inspector General




      2010 Recovery Act - Job Corps Multi Year Lease
 24                    Report No. 18-10-009-03-370
U.S. Department of Labor – Office of Inspector General




      2010 Recovery Act - Job Corps Multi Year Lease
 25                    Report No. 18-10-009-03-370
U.S. Department of Labor – Office of Inspector General




      2010 Recovery Act - Job Corps Multi Year Lease
 26                    Report No. 18-10-009-03-370
                                        U.S. Department of Labor – Office of Inspector General



                                                                               Appendix E
Acknowledgements

Key contributors to this report were Tracy Katz, YC Lee, Rodelito Homoroc, Andrew
Loomis, Adams Kondeh and Christine Allen.




                                              2010 Recovery Act - Job Corps Multi Year Lease
                                         27                    Report No. 18-10-009-03-370
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online: http://www.oig.dol.gov/      hotlineform.htm
Email: hotline@        oig.dol.gov

Telephone:		 1-800-347-3756
             202-693-6999

Fax:         202-693-7020

Address:     Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
Room                S-5506
             Washington, D.C. 20210
